                        Management Information Report

             RRA Program Debt Recognition and Collection Experience

                        Report No. 01-09, July 26, 2001


This report presents the results of the Office of Inspector General’s (OIG) study of
Railroad Retirement Act (RRA) program debt recognition and collection experience at
the Railroad Retirement Board (RRB).

BACKGROUND

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the health and welfare provisions of the RRA which provide
retirement-survivor benefits for eligible railroad employees, their spouses, widows and
other survivors. During fiscal year (FY) 2000, approximately 724,000 annuitants
received benefits totaling $8.3 billion under the RRA.

The RRB also administers the Railroad Unemployment Insurance Act (RUIA) which
provides unemployment and sickness insurance to workers in the rail industry. During
FY 2000, the RRB paid $76.5 million to the 14,000 individuals qualifying for
unemployment benefits and the 23,000 individuals qualifying for sickness benefits under
the RUIA.

In FY 2000, the RRB established new accounts receivable due from the public totaling
$87.3 million including principal and interest. As of September 30, 2000, the agency
reported outstanding receivables of $51.8 million reduced by an allowance for doubtful
accounts of $12.5 million, or 24% of the total.

The debt recovery process begins with the recognition that a benefit overpayment has
occurred. In many cases, notice of an event that will affect the benefit payment amount
is received after-the-fact. If the corrected rate is lower than the amount actually paid in
the past, the beneficiary will have been overpaid. The agency then recognizes a debt in
its financial records and takes action to collect the overpayment.

The Bureau of Fiscal Operations has primary responsibility for the RRB’s accounting
operations. Within the Bureau of Fiscal Operations, the Debt Recovery Section (DRS)
has overall responsibility for the RRB’s debt collection activities, including monitoring
the collection status of pending debt and pursuing delinquent debtors.

The Program Accounts Receivable (PAR) system is a mainframe computer application
that supports the agency’s debt recovery operations. It contains the detailed history of
each debt recognized by the RRB including the cause, amount, collections, outstanding
balance, and final disposition. Although DRS has administrative responsibility for the
PAR system, the majority of transactions recorded in the PAR system are initiated in the
Office of Programs.

This study addresses areas of management performance that support the RRB’s
strategic goal of safeguarding agency trust funds through prudent stewardship.


                                            1

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this project was to identify relationships between the causes of
overpayment and the effectiveness of the debt collection process. In order to
accomplish our objective we:

      •	 obtained a download of debt established during FY 1998 as of September 30,
         1998, and updated the pending balance at the end of FY 1999, FY 2000 and
         March 2001;

      •	 analyzed debt established during FY 1998 by cause of overpayment and
         status of collections;

      •	 performed a limited review of the documentation supporting the PAR system
         entries for the 78 overpayments established during FY 1998 that exceeded
         $25,000;

      •	 interviewed agency management and staff concerning debt recognition and
         collection procedures; and

      •   obtained debt recovery statistics for prior years.

Fieldwork was conducted at RRB headquarters during February through May 2001.




                                             2

                                       RESULTS OF REVIEW


Our study of the RRB’s debt recognition and collection experience shows a close
relationship between the causes of RRA program overpayments and the outcome of the
collection process. However, the inclusion of a high volume of non-debt transactions
inflates reports of debt recognition and collection. The RRB established new
receivables valued at $87 million during FY 2000 of which approximately $37 million
(42%) is attributable to non-debt transactions.

In addition, current procedure does not provide for internal review or publication of
measures of debt recovery performance, such as delinquency, turnover, clearance and
cash collection rates that are traditionally used to evaluate the debt management
function.

A detailed discussion of the results of our analysis follows.

RECOGNITION AND COLLECTION EXPERIENCE

Our study of the RRB’s RRA debt recognition and collection experience shows rapid

activity in clearing debt with a high percentage of debt clearances resulting from cash

collections.

However, the RRB’s experience in collecting overpayments attributable to the death of

an annuitant or concurrent entitlement to Social Security benefits differs greatly from its

experience with overpayments attributable to other causes.


In addition, the RRB maintains a large inventory of old, difficult to collect receivables

that is offset by a large allowance for doubtful accounts.


Characteristics of RRA Program Debt

In order to extend our understanding of debt recognition and collection activity, we
tracked the progress of the debt clearance process for RRA debts established during
FY 1998.1 We identified RRA debts that were recorded on the PAR system during FY
1998 and were still on the PAR system as of September 30 of that fiscal year. 2 At the
end of FY 1999, FY 2000 and March 2001, we updated the outstanding balance for
each debt in the population. In this manner, we were able to track the progress of the
debt recovery process for a fixed population of receivables.




1
  Clearances include all transactions that reduce the balance of accounts receivable including collections,

corrections, bad debt write-offs, and waivers of collection after due process.

2
  This population did not include debts that were declared erroneous and deleted from the PAR system

prior to September 30, 1998.



                                                     3

Our analysis of PAR system data indicates that:

   •	 individual debts are small, approximately 40% are under $500, 90% are under
      $2,000;
   •	 more than 20% of the dollar value of debt established is concentrated in the 2%
      of overpayments that exceed $5,000;
   •	 the largest volume of debt clearances occur shortly after a debt is recognized
      with incremental reductions in the outstanding balances thereafter;
   • cash collections represent no less than 90% of all debt clearances; and
   • debt recovery experience varies widely by cause of overpayment.

RRA Debt Recovery Experience

As of September 30, 1998, the PAR system included RRA overpayments valued at over
$49 million that had been established during FY 1998 of which 77% had been cleared
by the end of that fiscal year and nearly 90% was cleared during the next 12 months.
The following table presents the long-term progress of debt clearances for accounts
receivable established in FY 1998 by major cause of overpayment.

                                                         As of March 31, 2001
                                   Receivables         Balance           Percent
                                   Established        Outstanding       Collected
                                        (millions)          (millions)
 Benefits Released After the
                                           $31.4                 $ .8             98%
 Death of an Annuitant

 Concurrent Entitlement to
                                             $9.8                $ .4             95%
 Social Security Benefits

 All Other Causes                             8.3               $ 2.2             74%

                          Total            $49.5                  3.4             93%

Incremental collections in all three categories, including “all other causes,” can be
expected to continue. The RRB can expect to further reduce the balance of outstanding
receivables by periodic withholding from the annuities of individuals with current or
future entitlement to RRA benefits. In addition, the agency RRB may benefit from its
participation in the inter-agency debt cross-servicing program coordinated by the U.S.
Department of the Treasury (Treasury).

The high overall rate of clearances for debts resulting from the release of payments
after the death of an annuitant and concurrent entitlement to Social Security benefits is
due to the inclusion of some transactions that do not meet the definition of an account
receivable.




                                            4

RRA program debt recognized during FY 1998, detailed by cause of overpayment, is
included as Appendix I to this report. A summary presentation of the collection
experience of RRA program debt is presented in Appendix II.

Large Balance of Outstanding Receivables

The RRB’s large balance of outstanding RRA and RUIA receivables ($51.8 million at
the end of FY 2000) and high allowance for doubtful accounts ($12.5 million) is the
result of its policy of maintaining an inventory of old, difficult to collect debt for up to 10
years. During that period, the RRB may be able to make incremental recoveries by
withholding from future benefit entitlements and intra-governmental debt collection
programs.

Unlike a private concern managing its trade receivables, the RRB cannot obtain any
financial or business advantage by writing-off old debt.




                                               5

NON-DEBT TRANSACTIONS INFLATE RECOGNITION AND COLLECTION DATA

The RRB’s debt recognition and collection data are inflated by the inclusion of non-debt
transactions.

The PAR system is used to account for returned and reclaimed benefit payments as
well as certain transactions resulting from the coordination of RRA and Social Security
benefits that do not meet the criteria for debt recognition. As a result, debt recognition
and collection statistics that are prepared using PAR system data are inflated. In FY
2000, these three classes of transactions represented approximately $37 million of the
$87 million in new debt recognized by the RRB.

Returned and Reclaimed Benefit Payments Are Recognized as Debt

Annuities are not payable under the Railroad Retirement Act for the month in which a
beneficiary dies or any month thereafter. Such payments, whether issued by check or
electronic funds transfer, must be returned to the RRB. In FY 2000, the RRB
established approximately $30 million in accounts receivable for benefit payments that
were returned by individuals and financial institutions after the death of the annuitant.

Under current procedure, the RRB recognizes an account receivable for payments
released after the death of an annuitant as soon as the agency is advised of the date of
death. This practice is the result of procedural changes intended to enhance agency
accountability for death-related debt. However, we believe returned payments and
pending reclamations should not be recorded in the agency’s accounting records as
accounts receivable because they do not meet the criteria for receivable recognition.

In the Federal government a receivable should be recognized when a collecting entity
establishes a specifically identifiable, legally enforceable claim to cash or other assets
through its established assessment processes. 3 Neither returned nor reclaimed
payments meet this standard.

Returned Benefit Payments

In some cases, benefit payments released after the death of an annuitant are returned
without a prior demand for repayment from the agency. Under current procedure, the
RRB establishes an account receivable after the funds have been returned; no
collection action is ever taken by the RRB.

A returned benefit payment does not meet the criteria for receivable recognition
because it does not represent a claim to cash. The cash has already been received


3
 Statements of Federal Financial Accounting Standards (SFFAS) Number 7, paragraph 53. This
definition of accounts receivable from nonexchange transactions requires the standard for recognition of
account receivable to be amended so that such receivables are not recognized on the basis of payment
due dates but rather on the basis of the completion of the assessment processes.


                                                    6

and should be recognized in the agency’s accounting records as a cash receipt rather
than a receivable.

Reclaimed Benefit Payments

When the RRB is notified of the death of an annuitant, the agency terminates the
payment of benefits effective with the month of death and establishes an account
receivable. The agency initiates the Treasury reclamation process for any benefits
released after the date of death.

The release of benefit payments in error is not sufficient to support recognition of an
account receivable because it is based on due date alone. The party from whom the
funds are to be recovered must also be identified. Until the reclamation process has
been completed, the identity of the debtor against whom the Board can press a legal
claim remains unknown.

Reclamation of benefit payments is literally a reversal of the original net payment
transaction. Treasury demands return of the payment from the depositor’s financial
institution and credits the proceeds to the RRB. However, if checks have been
negotiated or funds deposited electronically have been withdrawn, Treasury advises the
agency of the name of the party receiving the funds. At that time, DRS takes the
administrative action that is the basis for debt recognition: identification of a debtor,
release of an overpayment letter and pursuit of collection.


Routine Social Security Adjustments Recognized as Debt

The RRB records an account receivable for all retroactive annuity adjustments resulting
from concurrent entitlement to Social Security benefits, even when the RRB is
immediately and fully reimbursed by withholding of accrued Social Security benefits. As
a result, the RRB records approximately $7 million per year more in debt and related
collections than would otherwise be recognized.

The tier I portion of an RRA annuity must be reduced for any Social Security benefits
that are concurrently payable. As a result of timing differences between the date of
entitlement to concurrent benefits and notification to the RRB, reduction of the tier I
benefit often requires a retroactive downward adjustment of the RRA annuity.

Under normal circumstances, retroactive downward adjustment of an annuity requires
the RRB to seek return of the benefit overpayment from the annuitant. However, in
order to facilitate the coordination of benefits between the two agencies, Congress has
authorized the Social Security Administration to certify the Social Security benefits of
Railroad Retirement annuitants to the RRB so that a single combined payment can be
issued. In these cases, termed “LAF E Social Security cases,” the retroactive payment
of Social Security benefits becomes a paper transaction, in which the full amount of the
tier I reduction for prior periods is withheld from the Social Security benefits that have



                                             7

accrued unpaid for those periods. 4 In most cases, there is never an outstanding
balance to collect.

An account receivable recognizes a claim to cash or other assets; however, the
retroactive adjustment that occurs when Social Security benefits are certified to the
RRB for payment fully reimburses the RRB’s trust funds. No claim to cash from the
public exists. The RRB is effectively recognizing as debt transactions that were
designed to prevent debt.

Non-Debt Transactions Distort Debt Recovery Statistics

In the discussion of debt recovery activity that accompanied the RRB’s published
financial statements, the agency reported establishing $87 million in new receivables
during FY 2000. Returned and reclaimed RRA benefit payments and retroactive
adjustments to LAF E Social Security cases comprised approximately $37 million (43%)
of the total reported.

Inclusion of a high volume of non-debt transactions inflates the volume of program debt
and presents an unnecessarily negative picture of the RRB’s overall operations, distorts
the relationship among data, and may obscure meaningful trends. In an analysis that
excludes returned and reclaimed benefit payments and retroactive adjustments for LAF
E Social Security entitlement, the dollar value of new debt would fall dramatically and
the relative monetary impact of the various causes of overpayment would be altered.

In addition, inclusion of non-debt transactions in accounts receivable and debt recovery
statistics can adversely impact the comparability of the RRB’s experience with other
entities. We compared the experience of the RRB as reported in the agency’s financial
statements with comparable data from the Social Security Administration for FY 1999.

The table below compares the debt recognition experience of the Social Security Old
Age, Survivor and Disability (OASDI) programs with the comparable retirement and
survivor programs of the RRA for FY 1999.

                                                          OASDI                       RRA

    Benefit Payments                                       $333.0 billion               $8.0 billion
    New Overpayments                                         $ 2.3 billion            $47.9 million
    Overpayments Attributed to the death
                                                           $ 94.0 million             $31.5 million
    of the annuitant

In FY 1999, the Social Security Administration attributed new benefit overpayments of
$94 million to the release of payments after the death of the annuitant, approximately

4
  The designation “LAF E” refers to the coding used in Social Security’s master benefit record. “LAF E”
benefits are paid by the Railroad Retirement Board. “LAF C” benefits are paid by the Social Security
Administration.


                                                   8

4% of total OASDI debt detections. The RRB, a much smaller program, recognized
$31.5 million in death related-related receivables, approximately 65.8% of total RRA
program debt. This difference in debt recognition experience between the two agencies
is due to the Social Security Administration’s limiting recognition of other death-related
debt to payments that have not been successfully returned via the Treasury reclamation
process.

Recommendations

We recommend that the Bureau of Fiscal Operations end the practice of recognizing a
debt and related account receivable for:
   1. returned benefit payments;
   2. pending reclamations;
   3.	 overpayments resulting from the retroactive downward adjustment of RRA
       annuities when recovery is simultaneously effected by withholding from accrued
       Social Security Benefits.

Management’s Response

BFO management disagrees. BFO believes that the current agency process used for
recognizing debt and related accounts receivable is appropriate and within the scope of
the Statements of Federal Financial Accounting Standards (SFFAS) promulgated by the
Federal Accounting Standards Advisory Board. They also believe that establishing
accounts receivable for benefit payments issued after the death of the annuitant and
overpayments resulting from Social Security adjustments provides effective
management control because “these items can be recorded, compiled and tracked for
management’s analysis.”

In support of their position BFO cited SFFAS No. 1, Accounting for Selected Assets and
Liabilities, guidance obtained for preparing Treasury’s Report on Receivables mandated
by Treasury and draft guidance issued by the Joint Financial Management Improvement
Program (JFMIP). Management also stated their belief that implementation of prior OIG
audit recommendation had already ensured the adequacy of their current policy and
procedure.

OIG’S Comments on Management’s Response

We do not feel that BFO has made a convincing argument for rejection of the
recommendations. The OIG continues to believe that the inclusion of returned benefit
payments, pending reclamations and retroactive LAF E social security adjustments
inflates the RRB’s debt recognition and collection experience. Continued recognition of
these transactions as debt will adversely impact the public perception of agency
program performance and prevent meaningful comparisons with other entities.




                                            9

BFO’s response does not fully address the issues raised by the OIG’s report. BFO has not
offered a rationale for its policy of recognizing an account receivable after cash has been
returned to the agency (returned benefit payments and retroactive LAF E Social Security
adjustments) nor has it specifically explained why it believes that a pending reclamation
requires debt recognition.

In addition, BFO has not addressed the lack of comparability between RRB and Social
Security debt recognition experience as detailed in the report. Comparability is a
significant issue that should be examined carefully. The divergence of the debt
recognition experiences of the RRB and Social Security Administration has been raised
by that agency as an obstacle to consideration of uncollected overpayments in the
computation of the financial interchange between the two agencies, a change that can
be expected to benefit the RRB.

BFO believes that establishing accounts receivable for returned and reclaimed benefit
payments and LAF E Social Security adjustments provides effective management
control because these items can be recorded, compiled and tracked for management’s
analysis. However, these transactions are also recorded in the agency’s benefit
payment systems. Even if the PAR system provides a more convenient repository for
information about certain transactions, it is illogical to assume that all of those
transactions must then be included in the agency’s debt recognition and recovery
statistics.

BFO cites the receivable standard set forth in SFFAS #1; however, they do not explain
how that standard supports the recording of receivables after the cash has been
returned to the agency. In addition, they do not acknowledge that the standard was
amended by SFFAS #7 or their reasons for ignoring the amendment.

Treasury’s satisfaction with BFO’s method of preparing a special-use report, such as
Treasury’s Report on Receivables, is not pertinent to the present discussion. The
issues raised in the OIG’s report pertain to the perceptions of a much wider audience
that includes both Federal and non-Federal users of financial information.

We must also note that Treasury has not mandated inclusion of all erroneous benefit
payments for TROR reporting. According to BFO, Treasury’s position is that “it is
acceptable to establish erroneous benefit payments as receivables if we close them as
either cancellations or adjustments.” The OIG believes that the Treasury-approved
policy of classifying returned benefit payments as “cancellations or adjustments,” rather
than “collections,” supports the OIG’s position that these transactions should never have
been classified as receivables.

The JFMIP guidance cited by BFO is not relevant to the present discussion. The
quoted passage states that receivables should be established but does not address the
timing of debt recognition. BFO has not explained how the JFMIP guidance supports
their position.




                                           10

BFO cites two OIG audit reports to support their position, one of them was issued more
than six years ago. Both reports focused on the functional implementation of existing
agency policy. Neither report treated the high level issues examined in this report. The
OIG reserves the right to re-visit any issue at any time.

AVAILABLE STATISTICS ARE NOT ADEQUATE FOR EVALUATION OF DEBT
MANAGEMENT OPERATIONS

Debt recognition and collection statistics, as they are currently prepared and circulated,
will not adequately support the program evaluation needs of higher levels of
management.

The only widely circulated information concerning the RRB’s debt recovery activity is
presented in the agency’s published financial statements and is limited to aggregate
annual recognition and collection data supplemented by detail concerning the largest
causes of overpayment and major methods of recovery. The Chief Financial Officer’s
monthly administrative report to the three-member Board includes only total receivables
recognized and total recoveries recorded during the current month and the fiscal year
to-date.

Establishment and review of performance measures and indicators are part of internal
control. The limited information that is presently prepared and circulated does not
provide meaningful information concerning the effectiveness and efficiency of the RRB’s
debt recovery operations because it does not include review or publication of key
measures of debt management, such as delinquency, turnover, clearance and cash
collection rates.

Recommendation

4.	 We recommend that the Bureau of Fiscal Operations, at least annually, prepare and
    circulate measures of debt recovery performance, such as delinquency, turnover,
    clearance and cash collection rates for use in evaluating the effectiveness and
    efficiency of debt recovery activities.

Management’s Response

BFO concurs with the recommendation. BFO has agreed to report annually on key
measures of debt management effectiveness and efficiency. This new procedure will
supplement the debt recovery information that is currently prepared and circulated in
connection with the agency’s budget process, in BFO’s monthly administrative reports
and in response to special requests.




                                            11

